                  NATIONAL ENDOWMENT FOR THE ARTS
                     OFFICE OF INSPECTOR GENERAL




      FINANCIAL MANAGEMENT SYSTEM &
          COMPLIANCE EVALUATION
                                                    OF

                             Michigan Opera Theatre
                                          DETROIT, MI


                                 REPORT NO. SCE-09-08
                                   September 30, 2009




                               REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on the
National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those intended
without prior consultation with the NEA Office of Inspector General regarding its applicability.
                                   INTRODUCTION


BACKGROUND


Michigan Opera Theatre (Theatre) was originally established as an educational and outreach arm
of the Detroit Grand Opera Association by David DiChiera in 1963. The Theatre became a
professional opera company in 1971. The Theatre is one of the largest opera companies in the
United States. The Theatre presents opera, dance, and educational activities to make a positive
impact on the lives of people in metro-Detroit.


OBJECTIVE AND SCOPE

The objective of this financial management system and compliance evaluation by the National
Endowment for the Arts (NEA) Office of Inspector General (OIG) is to determine whether the
organization’s financial management system and recordkeeping complies with the requirements
established by the Office of Management and Budget (OMB) and NEA’s General Terms and
Conditions for Grants and Cooperative Agreements to Organizations (General Terms). The
evaluation was conducted in accordance with the President’s Council on Integrity and Efficiency
Quality Standards for Inspections, as applicable.


PRIOR AUDIT COVERAGE

During the past five years, the NEA Office of Inspector General has not issued any audit reports
on Federal grants awarded to the Theatre. As of our site visit October 6, 2008, the most recent
issued independent auditor’s report on the financial statements of the Theatre was for the year
ended June 30, 2007. The audit was conducted by Doeren Mayhew, CPAs, which issued an
unqualified (clean) opinion. The Theatre was not subject to the audit requirements of OMB
Circular A-133.


                          RESULTS OF EVALUATION

Our evaluation concluded that the Theatre did not report accurate expenditure amounts on its
Financial Status Report. The Theatre included unallowable cost and did not clearly identify their
expenditures. The Theatre also did not have a Section 504 self-evaluation on file. Details are
presented in the following narrative.


REPORTED EXPENDITURES
For selected Grant No. 07-3600-7031, the Theatre did not report accurate expenditure amounts
on its Financial Status Report to the NEA. Documentation provided by the Theatre showed costs
                                                                                                   1
totaling $1,480,096 for the subject grant, whereas it reported total costs incurred of $1,599,306
on its final Financial Status Report. The grant was awarded in the amount of $40,000 with a
one-to-one matching requirement to “support Cyrano.”

The Theatre included $3,028 of unallowable costs under OMB Circular A-122. These costs
included fundraising, Visa application fees, and lost luggage. OMB Circular A-122 states:
           Costs of organized fund raising, including financial campaigns, endowment drives,
           solicitation of gifts and bequests, and similar expenses incurred solely to raise capital or
           obtain contributions are unallowable.

We also found that $138,609 of the $1,480,096 were questionable costs related to prepaid, bank
and other expenses that were not clearly identifiable. OMB Circular A-110, Section 21 states:

       Recipients’ financial management systems shall provide for the following. . . . Records that identify
       adequately the source and application of funds for federally-sponsored activities. . . .

The NEA’s General Terms refers to the Financial Management Guide for Non-Profit
Organizations states in part:

       Recipients must have accounting structures that provide accurate and complete information about
       all financial transactions related to each Federally-supported project.

       Grant expenditure records must be at least as detailed as the cost categories indicated in the approved
       budget (including indirect costs that are charged to the project). Actual expenditures are to be compared
       with budgeted amounts.

Based on the unallowable and questioned costs, we reduced the allowable expenditures by
$141,637. The Theatre still meets the matching requirement without these costs; therefore, we
are not requesting any further documentation. We are recommending that the Theatre develop
and implement procedures to ensure that it reports accurate amounts on its Financial Status
Reports and includes only those amounts that are allowable per the approved budget, OMB
Circulars and NEA General Terms.


SECTION 504 SELF-EVALUATION
The Theatre did not have a Section 504 self-evaluation on file. As noted in NEA’s General
Terms and Conditions for Grants and Cooperative Agreements to Organizations, “A Section 504
self-evaluation must be on file at your organization.” A Section 504 Self-Evaluation Workbook,
which can be completed online, is available at www.arts.gov/about/504workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to
enter facilities and participate in programs and activities. It does not require that every part of
every facility or program be accessible. The important considerations are that individuals with
disabilities have the same opportunities in employment, the same opportunities to enter and
move around in facilities, the same opportunities to communicate and the same opportunities to
participate in programs and activities as non-disabled people. Further, it is important to offer

                                                                                                                   2
employment, programs, and services in settings that are integrated rather than to segregate
individuals with disabilities with special programs. A copy of the Section 504 self-evaluation
workbook was provided to the Theatre during the evaluation.


EXIT CONFERENCE
An exit conference was held with the Theatre officials on October 6, 2008 with a follow-up
telephone call on September 30, 2009. They concurred with our findings and recommendations.



                               RECOMMENDATION
We recommend that the Theatre:


   1. Develop and implement procedures to ensure that it reports accurate amounts on its
      Financial Status Reports and includes only those amounts that are allowable per the
      approved budget, OMB Circulars and NEA General Terms.

   2. Develop and implement procedures to ensure that all records identify adequately the
      source and application of funds and the grant expenditure records should be detailed as
      the cost categories indicated in the approved budget.

   3. Conduct a Section 504 self-evaluation to ensure compliance with the Rehabilitation Act
      of 1973, as amended. (A copy of this completed document will be provided to the NEA’s
      Civil Rights/EEO Office.)




                                                                                                 3
